                                                        IG-02-021




AUDIT
                           CONTRACTING ISSUES ASSOCIATED WITH
REPORT                      THE NASA SAFETY REPORTING SYSTEM

                                        July 29, 2002




                           OFFICE OF INSPECTOR GENERAL
National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for
Audits at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General
for Audits. Ideas and requests can also be mailed to:

       Assistant Inspector General for Audits
       Code W
       NASA Headquarters
       Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form
or write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station,
Washington, DC 20026. The identity of each writer and caller can be kept confidential,
upon request, to the extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
www.hq.nasa.gov/office/oig/hq/audits.html.




Acronyms

ASRS           Aviation Safety Reporting System
CFR            Code of Federal Regulations
COTR           Contracting Officer’s Technical Representative
CO             Contracting Officer
FAR            Federal Acquisition Regulation
GSA            General Services Administration
NSRS           NASA Safety Reporting System
OIG            Office of Inspector General
OSMA           Office of Safety and Mission Assurance
RPI            Research Planning, Inc.
SBA            Small Business Administration
USC            United States Code
                                     July 29, 2002

W


TO:           HQ/Q/Associate Administrator for Safety and Mission Assurance
              HQ/H/Assistant Administrator for Procurement

FROM:         HQ/W/Assistant Inspector General for Audits

SUBJECT:      Final Report on Audit of Contracting Issues Associated With the
              NASA Safety Reporting System
              Assignment Number A-02-006-00
              Report Number IG-02-021


The subject final report is provided for your information and use. Please refer to the
Executive Summary for the overall audit results. Our evaluation of your response is
incorporated into the body of the report. NASA’s completed corrective actions for
recommendations 1 through 3 were responsive. Although we have concerns about the
action taken regarding recommendation 4 (see page 10 of the report), we consider all the
recommendations closed for reporting purposes. The final report distribution is in
Appendix F.

We appreciate the courtesies extended to the audit staff. If you have questions
concerning the report, please contact Ms. Sandy Massey, Program Director, Safety and
Technology Audits, at (321) 867-4057, or Ms. Kathleen M. Kirby, Auditor-in-Charge, at
(281) 483-4773.



[Original Signed By]
Alan J. Lamoreaux

Enclosure
                                                        2

cc:
HQ/AI/Associate Deputy Administrator
HQ/AA/Chief of Staff
HQ/AB/Associate Deputy Administrator for Institutions
HQ/B/Deputy Chief Financial Officer
HQ/B/Comptroller
HQ/BF/Director, Financial Management Division
HQ/G/General Counsel
HQ/HK/Director, Contract Management Division
HQ/JM/Director, Management Assessment Division
HQ/QS/Director, Safety and Risk Management Division
GSFC/100/Director, Goddard Space Flight Center
Contents
Executive Summary, i

Introduction, 1

Findings and Recommendations, 2

     Finding A. Timeliness of Contract Administration, 2
     Finding B. Cost-Effective Contracting, 7
Appendix A - Objectives, Scope, and Methodology, 11
Appendix B – Summary of Prior Audit Coverage, 13
Appendix C. Our Analysis of the NSRS Contractor Reports, 15
Appendix D – Management’s Response, 16
Appendix E – OIG Comments on Management’s Response, 20
Appendix F - Report Distribution, 23
                           NASA Office of Inspector General

IG-02-021                                                                             July 29, 2002
 A-02-006-00

                        Contracting Issues Associated With the
                           NASA Safety Reporting System

                                      Executive Summary

Background. The Office of Inspector General has performed an audit of the NASA
Safety Reporting System (NSRS.) The NSRS is a confidential, voluntary, and responsive
reporting system for NASA employees and contractors to notify the Office of Safety and
Mission Assurance (OSMA) of safety hazards affecting NASA-related activities. The
system is intended to supplement safety-reporting channels by allowing employees to
confidentially report safety concerns using a standardized form. Once completed, the
form is forwarded to the NSRS contractor who analyzes the concern and forwards it to
the OSMA for response. Although NASA and contractor employees are encouraged to
initially use the local reporting mechanisms available at their work sites to report safety
concerns, the NSRS is available to report safety concerns (1) if an individual believes that
no action was taken on the initially reported concern; (2) an individual is dissatisfied with
the action taken; or (3) extenuating circumstances, such as fear of reprisals, prevent an
individual from using standard reporting channels.

Objectives. Our overall objective was to evaluate the effectiveness of the NSRS. The
specific objective related to this report was to determine whether NASA and the NSRS
contractor effectively performed contract requirements. This report identifies conditions
regarding the NSRS contract that warrant timely action by NASA because the Agency
did not promptly act on the Small Business Administration’s (SBA’s) recommendation to
terminate the NSRS contract after ownership transferred to a non-8(a) company.1 Details
on the audit objectives, scope, and methodology are in Appendix A. Other reports
addressing the NSRS are summarized in Appendix B.

Results of Audit. The NASA contracting officer (CO) did not terminate the NSRS
contract in accordance with laws and regulations or Agency guidance for the SBA’s 8(a)
Business Development Program (8(a) program). As a result, NASA will have to take
action to avoid a break in NSRS coverage until a new contract can be established.
Further, NASA’s actions are not in compliance with the Small Business Act, Title 13,



1
 The Small Business Act established by 15 United States Code (U.S.C.) 637(a) authorizes the Small
Business Administration (SBA) to enter into all types of contracts with other agencies and to award
subcontracts to firms eligible for program participation. The SBA refers to the 8(a) Business Development
Program as the 8(a) program because it is under Section 8(a) of the Act.
Code of Federal Regulations (CFR), Part 124,2 and the Federal Acquisition Regulation
(FAR) requirements because the lack of contract termination denied 8(a) opportunities to
eligible, disadvantaged small businesses (Finding A). We also found that NASA’s use of
a cost-reimbursement contract for the initial and follow-on 8(a) contracts was not cost-
effective. Consequently, NASA paid more than $9,500 a month to process one to two
reports each month for the last 35 months and assumed risks that could have been shared
or transferred to the contractor to lower NSRS costs (Finding B).

Recommendations. NASA should take immediate action to ensure it has coverage for
the NSRS until a new NSRS contract or other reporting system can be established. In the
interim, NASA should coordinate with the current NSRS contractor to complete a
transition plan that addresses how the documents and equipment, including any software,
databases, and the NSRS Web site will transition to NASA or a new NSRS contractor. In
addition, NASA should emphasize the Small Business Act, the FAR, and the Agency
Procurement Information Circulars relating to the 8(a) program to ensure that CO’s and
Contracting Officer’s Technical Representatives (COTR’s) are aware of the requirements
for establishing and administering contracts with 8(a) businesses. Finally, NASA should
award a fixed-price contract for the NSRS or consider potentially more cost-effective
alternatives, such as the Aviation Safety Reporting System or an Agency Hotline office to
administer the NSRS program.

Management’s Response. NASA either concurred or partially concurred with the four
recommendations and has taken responsive actions to close recommendations 1 through
3. Although we recommended a fixed-price contract for the NSRS reporting
requirement, NASA has awarded a time and materials contract using the General
Services Administration Federal Supply Schedules. Notwithstanding our concerns with
this approach, since NASA has already awarded the contract, recommendation 4 will also
be closed. NASA also provided general comments related to our findings. Our responses
to the general comments are in Appendix E.




2
Title 13, Code of Federal Regulations (CFR), Part 124, “Business Development-Small Disadvantage
Business Status Determinations” is the implementing regulation for the 8(a) program.


                                                 ii
Introduction
In 1987, NASA established the NSRS because of criticism by the Rogers Commission3
that the Agency was operating a silent safety program. During that time, Battelle
Memorial Institute (Battelle) was operating a confidential safety information system
developed by NASA for the Federal Aviation Administration called the Aviation Safety
Reporting System (ASRS).4 NASA considered using the ASRS to report safety hazards
affecting NASA-related activities, but on March 18, 1987, elected to award Battelle a
separate, sole-source contract to design, develop, implement, and operate the NSRS.

In 1994, NASA determined that the NSRS could be performed by a small business
pursuant to the Small Business Act. On May 19, 1994, NASA awarded the NSRS
contract, valued at $663,350, to Research Planning, Inc. (RPI), a small business concern
in Falls Church, Virginia, under the 8(a) program. The contract required RPI to perform
the following NSRS activities: manage and operate a single NSRS office; operate a mail-
in safety reporting system that ensures correspondents’ concerns will be communicated to
NASA safety personnel within 1 business day; perform the initial review of reports and
contact correspondents by telephone, if necessary; sanitize and transmit reports to NASA
representatives while maintaining confidentiality of correspondents; update and maintain
the NSRS database to track reports; conduct a report trend analysis; promote NSRS
through an awareness program; and prepare and transmit monthly reports to NASA
representatives. The period of performance, which included 1 base year and 4 option
years, ended May 18, 1999.

On May 19, 1999, NASA awarded RPI a follow-on 8(a) program contract of 1 base year
and four 1-year options. In April 2001, BTG, Inc. acquired RPI, and in November 2001,
Titan Systems Corporation (Titan) acquired BTG, Inc. Neither BTG, Inc. nor Titan
qualified as a small business company under the 8(a) program, thereby making them
ineligible to continue the NSRS contract.




3
  President Reagan appointed a special commission to conduct a formal inquiry into the 1986 NASA
Challenger accident. The Rogers Commission was named after its chairman, former Secretary of State,
William P. Rogers.
4
  The ASRS collects, analyzes, and responds to voluntarily submitted aviation safety incident reports in
order to lessen the likelihood of aviation accidents. The ASRS was established in 1975 under a
Memorandum of Agreement between the Federal Aviation Administration and NASA. While the Federal
Aviation Administration provides most of the program funding, NASA administers the program and sets its
policies in consultation with the Federal Aviation Administration and the aviation community.
Findings and Recommendations

Finding A. Timeliness of Contract Administration
NASA and the NSRS contractor did not comply with the Small Business Act, the FAR,
or Agency guidance relating to the change of 8(a) ownership and termination
requirements under the 8(a) program. This occurred because the NSRS contractor (RPI)
did not formally notify NASA prior to the company’s acquisition by BTG, Inc., a non-
8(a) company. In addition, the CO stated that there was insufficient time to perform
contract duties. A lack of awareness of the 8(a) program requirements and inadequate
oversight of the NSRS contract by procurement and technical personnel also contributed
to the noncompliance. As a result, NASA will have to take immediate action to ensure
continuous NSRS coverage until the Agency can establish a new NSRS contract.
NASA’s actions also denied contract opportunities to eligible, disadvantaged businesses.

Federal Law and Regulation and NASA Guidance for 8(a) Contracting

United States Code Guidance. The Small Business Act requires that a contract awarded
under the 8(a) program be performed by the concern that initially received the contract.
If the owner(s) upon whom eligibility was based subsequently relinquishes ownership or
control or enters into any agreement to relinquish ownership or control, the contract shall
be terminated for convenience.5 The 8(a) awardee is required to notify the SBA
immediately in writing of any agreement transferring ownership or control of the firm
and may request the SBA to waive the requirement that its 8(a) contract(s) be terminated
for convenience. The procuring agency may also request a waiver to this requirement
when termination of an 8(a) contract would severely impair an agency from meeting its
program objectives or mission. Only the SBA Administrator may waive the termination
requirement.

Code of Federal Regulations. Title 13, CFR, Part 124, is the guidance on the
applicability of the SBA’s 8(a) program. The CFR implements the Small Business Act
and is organized as a series of questions from an 8(a) program applicant’s point of view
and answers to the questions according to what the law allows.

FAR Guidance. FAR 19.8, “Contracting with the Small Business Administration (The
8(a) Program),” paragraph (f) states, “When SBA has delegated its 8(a) Program contract
execution authority to an agency, the contracting officer must refer to its agency
supplement or other policy directives for appropriate guidance.”



5
 FAR Clause 52.249-6 allows the Government to terminate contracts for its convenience by refusing to
continue with contract performance. Such termination does not necessarily result from any fault on the part
of the contractor. FAR 19.812 implements 8(a) contract administration procedures, including the
requirement to terminate a contract if the concern that was originally awarded the contract transfers
ownership or control or if the contract is transferred or novated, unless the Administrator of the SBA
waives the requirement for contract termination.

                                                    2
NASA Guidance. NASA issued Procurement Information Circular 98-1 on
January 14, 1998, to provide guidance for terminating 8(a) contracts when ownership or
control of the 8(a) concern is transferred. The circular states:

        If the SBA instructs the CO [contracting officer] in writing to terminate the 8(a)
        contract(s) and the CO determines that an agency request for waiver is not warranted, or
        if the SBA Administrator has denied, in writing, NASA's request for a waiver, then the
        CO should initiate action to terminate the 8(a) contract(s) for convenience as soon as
        possible after receiving such written instruction from the SBA.

Procurement Information Circular 99-21, issued in November 1999, updated NASA
guidance to require “the contracting officer to terminate the contract for convenience
upon receipt of a written request by the SBA.”

NASA’s Compliance with 8(a) Program Requirements

NASA and the SBA signed a Memorandum of Understanding in May 1998, granting the
Agency direct award authority and contract execution on 8(a) program contracts.6 As a
result, NASA directly contracted with RPI in 1999 to administer the NSRS program in
accordance with the Agency’s Memorandum of Understanding with the SBA. However,
NASA did not comply with Federal law and regulations or Agency guidance to terminate
the NSRS contract after ownership of RPI transferred to a non-8(a) company.

Contractor’s Sale Notification. RPI did not formally notify NASA or the SBA of the
sale of RPI to a non-8(a) company prior to the April 2, 2001, sale. The notification is
required by the Small Business Act. The Small Business Act requires that the 8(a)
contractor request, in writing, a waiver to the termination requirement prior to the change
of ownership and control, except in the case of the owner’s death or incapacity. NASA
received RPI’s letter of sale notification on April 10, 2001, or 8 days after the sale was
completed on April 2, 2001. RPI’s sale notification stated that RPI had requested the
SBA to waive termination of the contract because the “termination would severely impact
attainment of the agency’s [NASA’s] program objectives or mission.” RPI also
requested that NASA certify to the SBA that termination of its contract would impair
attainment of NASA’s program objectives. Because RPI did not notify NASA prior to its
sale, neither NASA nor RPI was in a position to certify or request a waiver of termination
from the SBA prior to the change in ownership as required by the Small Business Act.

The NASA CO asked the SBA whether it intended to approve RPI’s waiver request on
May 1, 2001, or 2 weeks before the contract’s first option period expired on
May 18, 2001. Because the SBA did not respond prior to the contract expiration and


6
 The memorandum was in effect when NASA awarded the RPI follow-on contract. A Partnership
Agreement that is in effect until 2003 replaced the memorandum granting NASA the same direct award
authority and contract execution responsibilities. Direct award authority allows NASA to enter into 8(a)
contracts and arrange for the performance of the contract with an eligible 8(a) contractor without going
through the SBA. Contract execution gives NASA responsibility for compliance with all applicable
provisions of the FAR and other acquisition regulations, unless a FAR deviation is obtained.

                                                     3
because NASA had not made other provisions to continue the NSRS program, the CO
exercised the second 1-year contract option period on May 19, 2001, to prevent a break in
service in the NSRS contract.

Agency Administration of the NSRS Contract. In July 2001, the SBA notified NASA
to terminate the NSRS contract based on 13 CFR 124.515(a)(1), which states that a non-
8(a) company cannot continue contracts initially awarded to an 8(a) company. However,
the CO did not terminate the contract because he stated that he was serving on a
negotiations board for another contract and did not have the time. In addition, the CO
stated that he was unaware of NASA’s procurement information circulars relating to
termination of 8(a) contracts.

NASA officials informed us in December 2001 and again in March 2002 that they
intended to recompete the contract with another 8(a) company, which would be obtained
through the Federal Supply Schedules administered by the U. S. General Services
Administration (GSA).7 As of April 15, 2002, the contract specialist had just begun to
work with the COTR to prepare the statement of work. If NASA had begun working on a
re-competition in July 2001 when notified by the SBA to terminate the contract, or in
December 2001, the Agency would have had sufficient time to properly plan for and
award another contract through either competitive means or the Federal Supply
Schedules. Because NASA did not begin working on a replacement for the NSRS
contract until April 2002, the Agency will be unable to award a new contract by the
expiration date of the second contract option period on May 19, 2002. Therefore, NASA
will have to take other actions to prevent a break in the NSRS pending re-competition
and award of a new contract.

Ninety days prior to contract completion, the NSRS contractor is required to provide the
CO and COTR a plan to turn over all NSRS system resources to a successor. The COTR
knew that RPI had been negotiating with another company, Science Applications
International Corporation, about 9 months before RPI was sold to BTG, Inc. The COTR
requested information from the CO regarding the Small Business Act requirements for
continuance of an 8(a) contract upon the sale of an 8(a) company to a non-8(a) company.
However, neither the CO nor the COTR requested a transition plan as required by the
contract or made provisions for a replacement contract during the 9-month period from
July 18, 2000, to April 2, 2001 when RPI sold to BTG, Inc.

NASA orally informed Titan8 on April 9, 2002, and by letter on April 11, 2002, that the
Agency would not exercise the next option at contract expiration on May 18, 2002.
However, the CO did not request a contract-required transition plan. NASA received a
transition plan from Titan on April 23, 2002.

7
  GSA administers the Federal Supply Schedules by negotiating contracts with both large and small
contractors offering a wide variety of services. FAR 8.001 establishes the “Priorities for use of
Government supply sources.” The Federal Supply Schedules are the second priority for obtaining services.
The first priority for obtaining services is from the Committee for Purchase From People Who Are Blind or
Severely Disabled.
8
  Titan acquired RPI in November 2001.

                                                   4
Agency NSRS Hotline

On February 10, 1998, the NASA Office of Inspector General (OIG) recommended9 that
the OSMA establish an Agencywide hotline, on a pilot basis, for reporting safety hazards.
The OSMA responded that an Agencywide safety hotline could be part of the overall
NASA safety program but would not be appropriate for the NSRS. However, the OSMA
never established the hotline. If an Agencywide hotline had been established as
recommended, NASA would have had, at a minimum, a backup process on which to rely
for receiving safety hazard reports until a new NSRS contract could be put into place.
The NSRS is the only anonymous hazard reporting system available to NASA and
contractor employees in addition to their normal reporting channels.

Conclusion

Because NASA did not establish a reporting hotline as recommended by the NASA OIG
in 1998, the Agency will have to take immediate action to assure continuous NSRS
coverage from May 19, 2002, until the Agency can establish a new NSRS contract.

Additionally, NASA allowed two non-8(a) companies, BTG, Inc. and Titan, to
improperly carry out the NSRS contract for about 10 months (from July 2, 2001, through
May 18, 2002.) By allowing contractors to continue in the 8(a) program when they were
not entitled to do so, NASA did not comply with the Small Business Act, the CFR, and
FAR requirements to ensure that agencies provide small businesses with the maximum
practicable opportunities to participate as prime or subcontractors in contracts awarded.
Further, NASA denied 8(a) program opportunities to eligible, disadvantaged firms.

Recommendations for Corrective Action

1. The Associate Administrator for Safety and Mission Assurance should take
appropriate action to avoid a break in NSRS service when the contract option
expires on May 18, 2002.

Management’s Response. Concur. NASA awarded a purchase order to Titan on
May 17, 2002, to serve as a bridge contract until the contract competition is completed
and awarded.

Evaluation of Response. Management’s corrective action is responsive to the
recommendation. We consider the action sufficient to disposition the recommendation,
which will be closed for reporting purposes.

The Assistant Administrator for Procurement should:

      2. Request the NSRS contractor to provide NASA with a transition plan that
addresses how NSRS documents and equipment, including any software and
9
 The Assistant Inspector General for Inspections, Administrative Investigations, and Assessments made
recommendations in a letter to the OSMA to improve the NSRS.

                                                   5
databases, will transition to NASA or an NSRS successor contractor and that
addresses when the NSRS Web site will be updated to reflect the new contractor.

Management’s Response. Concur. The transition plan was submitted and approved on
April 23, 2002.

Evaluation of Response. Management’s corrective action is responsive to the
recommendation. We consider the action sufficient to disposition the recommendation,
which will be closed for reporting purposes

       3. Emphasize to procurement personnel and contract technical
representatives the requirements in the Small Business Act, the CFR, FAR 19.8, and
the Agency’s Procurement Information Circulars relating to the 8(a) program
requirements.

Management’s Response. Concur. The Assistant Administrator for Procurement will
send a reminder by June 28, 2002, to all procurement personnel at the affected Center,
emphasizing the regulations applicable to 8(a) companies that are bought out by non-8(a)
companies. Additionally, the Associate Administrator will request that 8(a) regulations
be emphasized in the COTR classes taught periodically throughout the year.

Evaluation of Response. NASA notified us on July 2, 2002, that the Goddard Space
Flight Center Acquisition Support Procurement Office had reminded procurement
personnel of the requirements of FAR 19.812(d) and of PIC 98-1. The reminder stated
that personnel should be aware of the requirements of FAR 19.812(d) and should refer to
related NASA Procurement Information Circular 98-1, "Termination of 8(a) Contracts."
We consider the action sufficient to disposition the recommendation, which will be
closed for reporting purposes.




                                           6
Finding B. Cost-Effective Contracting
NASA’s selection of a cost-reimbursement contract for the 1999 NSRS follow-on
contract award with RPI may not have been cost-effective. Specifically, NASA awarded
a cost-reimbursement type contract for the NSRS when it had cost and reports history
from the Battelle and RPI initial contracts. The CO used a cost-reimbursement type
contract as the most advantageous to the Government because the CO stated that the
NSRS scope of work could not be sufficiently defined in advance to allow for the precise
costing necessary to permit performance on a fixed-price contract. In addition, NASA
did not consider an alternative to the NSRS such as the Federal Aviation
Administration’s ASRS or an Agency hotline prior to the award of the follow-on RPI
contract. As a result, NASA paid the contractor an average of $9,500 a month for the
follow-on contract to process only one to two reports a month for the last 35 months and
continued to assume all the risks under a cost-reimbursement contract. These risks could
have been shared and the costs potentially lowered through either a different type
contract or an alternative reporting vehicle.

Federal Guidance on Cost-Effective Contracting

FAR Subpart 16.1, “Selecting Contract Types,” states there is a wide selection of contract
types available to the Government and contractors to provide needed flexibility in
acquiring the large variety and volume of supplies and services required by agencies.
Contract types vary according to:

       (1) the degree and timing of the responsibility assumed by the contractor for the
           costs of performance; and

       (2) the amount and nature of the profit incentive offered to the contractor for
           achieving or exceeding specified standards or goals.

The FAR groups contract types into two broad categories: fixed-price and cost-
reimbursement contracts. Fixed-price contracts, for which the contractor has full
responsibility for the performance costs and resulting profit (or loss), should be used
when the risk involved is minimal or can be predicted with an acceptable degree of
certainty. Cost-reimbursement contracts, for which the contractor has minimal
responsibility for the performance costs, should be used when a reasonable basis for firm
pricing does not exist. Cost-reimbursement type contracts can have different fee
structures. The NSRS contract was a cost-plus-fixed-fee contract, which means that
NASA negotiated a fixed fee (profit).

Changing circumstances may make a different contract type more appropriate for later
periods. In fact, the FAR warns that contracting officers should avoid protracted




                                             7
use of a cost-reimbursement or time-and-materials10 contract after experience provides a
basis for firmer pricing. Changing from a cost-reimbursement to a fixed-priced type
contract generally results in lower costs and less risk to the Government.

Award of NSRS Contracts

Available Reporting History. NASA awarded cost-reimbursement contracts for the
initial and follow-on NSRS contracts to RPI when other alternatives may have been more
cost-effective. Specifically, NASA had an established 12-year11 reporting history under
Battelle, and procurement officials could have used that data to establish a fixed-price
contract for the follow-on contract to RPI. When NASA awarded the follow-on contract
to RPI, the Agency could have taken into consideration RPI’s reporting history under the
initial award as well as Battelle’s reporting history.

Previously Reported NSRS Data. As reported by the NASA OIG in February 1992,12
the NSRS reporting level had been declining since its inception in 1987. Specifically, the
NSRS had been designed to handle 86 reports a month. Actual NSRS reports never
reached the designed capability. In fact, the number of reports peaked at 15 in September
1988. As of August 1991, the NSRS had produced a total of 254 safety hazard reports --
an average of 5 reports a month over 4 years of program operation. During the first
8 months of 1991, however, the average number of reports dropped to 3 a month. In
more recent years (1999-2002), the number dropped to about 2 reports a month.

Selection of the NSRS Contract Type

The CO considered using a cost-reimbursement type contract in 1999 when the initial
RPI contract was about to expire. The CO determined that a cost-plus-fixed-fee contract
was the most advantageous to the Government because the scope of work could not be
sufficiently defined in advance to allow for the precise costing necessary to permit
performance on a fixed-price contract. However, the CO had a total of 12 years of cost
and reporting history for use in establishing a more cost-effective fixed-price contract.

Additionally, RPI was not at risk to design or develop the NSRS. Battelle had designed,
developed, and implemented the NSRS in 1987. The 1999 RPI statement of work
provided two phases of work content: Phase I – operational and Phase II – closeout.
There were no significant changes in the scope of work for the follow-on contract.


10
   A time-and-materials contract provides for acquiring supplies or services on the basis of (1) direct labor
hours at specified fixed hourly rates that include wages, overhead, general and administrative expenses, and
profit; and (2) materials costs. A time-and-materials contract may be used only when it is not possible at
the time of contract award to estimate accurately the extent or duration of the work or to anticipate costs
with any reasonable degree of confidence.
11
   The 12 years is the time between the Battelle contract awarded in 1987 and the RPI follow-on contract
award in 1999.
12
   “Audit of the NASA Safety Reporting System,” A-LE-89-005, showed that although the NSRS program
augmented internal safety reporting, the system’s limited scope and poor visibility by NASA and contractor
employees prevented NASA from achieving the full benefits of the program.

                                                     8
Therefore, RPI administered a system that was fully operational under a cost-
reimbursement contract for which there was minimal risk to the contractor.

Alternative Sources for Reporting
NASA could have considered establishing a new contract with Battelle or using the
ASRS as an alternative reporting system. NASA helped develop and currently
administers the ASRS at the Ames Research Center. Additionally, the Agency could
have considered establishing an Agency hotline, particularly due to the low volume of
reports received. NASA should examine the costs associated with these alternatives prior
to awarding a new NSRS contract.

The OSMA expressed concerns about using the ASRS because Ames Research Center
personnel administer the ASRS. Because Ames personnel report to the Office of
Aerospace Technology, NASA and contractor employees would not consider the ASRS
as separate and independent. The OSMA also expressed concerns about using an Agency
hotline because it could inadvertently increase risks under certain circumstances. The
present paper-based system requires a more rigorous process of documenting and
substantiating concerns, which aids the OSMA in quickly addressing alleged safety
problems.

We believe that the OSMA could consider using a support contractor to operate either the
ASRS or an Agency hotline and still maintain the independence and rigorous process that
is in place today. In addition, NASA policy requiring employees to report safety hazards
initially at the local level and the OSMA’s comments that “very few safety concerns
reported through NSRS are completely unknown to local management” further support
our position.

NSRS Reports Data and Contract Costs

NASA received 60 reports during a 34-month period from May 19, 1999, when the
follow-on contract was awarded to RPI, through March 27, 2002. For the 34-month
period, NASA received one to two reports a month. As of April 30, 2002, the total
contract funding, including fee, was $334,500. The average cost to process each report
over the approximate 3-year period was about $5,575 ($334,500 divided by 60 reports).
NASA paid RPI more than $9,500 ($334,500 divided by 35 months as of April 2002) to
collect and summarize one to two safety reports each month for 35 months. Our analysis
of the 60 NSRS contractor reports is summarized in Appendix C.

Conclusion

NASA awarded a cost-reimbursement type contract to an 8(a) firm, even though the
Agency could have awarded a fixed-price contract because NASA had an established
reporting history for the NSRS program. Alternatively, NASA could have considered
using the ASRS or establishing an Agency hotline based on the low volume of reports it
received. Instead, NASA has paid more than $9,500 a month to process one to two


                                            9
reports a month for the last 35 months. Additionally, NASA assumed all risks associated
with a fully operational safety-reporting program when those risks could have been
transferred to the contractor.

Recommendation for Corrective Action
4. The Assistant Administrator for Procurement and the Associate Administrator
for Safety and Mission Assurance should pursue a fixed-price contract for the next
NSRS contract based on more than 15 years of data collected from May 1987
through May 2002 or should consider cost-effective alternatives, such as the ASRS
or an Agency hotline to meet NSRS requirements.

Management’s Response. Partially Concur. A time and materials contract will be
awarded from the GSA Federal Supply Schedule by June 30, 2002. This cost-effective
alternative will result in the Agency paying only for the time that is actually expended on
this NSRS requirement.

Evaluation of Response. NASA provided us a copy of the new NSRS contract on
June 28, 2002. Although a time and materials contract is an allowable alternative to a
cost-plus type contract, we believe there are some disadvantages to that alternative.
According to procurement guidelines, a time and materials contract is used for
engineering and design services, repair, maintenance and overhaul work, or work to be
performed in emergencies. None of these types of services are consistent with the work
to be performed for the NSRS program. Additionally, there is no incentive for efficient
management or cost control under a time and materials contract. Because the
contractor’s overhead costs, general and administrative expenses, and profit are all
incorporated into a fixed hourly rate, the greater the number of hours charged on the
contract, the greater the profit to the contractor. Further, lack of a cost incentive makes
Government surveillance a necessity to assure effective contractor performance and cost
control methods. Based on these disadvantages, we continue to believe that NASA could
have effectively fulfilled the NSRS requirement using a fixed-price contract. Further, we
encourage NASA to review the results of the base year contract, prior to exercising the
first option year in June 2003 to determine whether the current contract is more favorable
to NASA than a fixed-price contract. Notwithstanding our concerns with a time and
materials contract and the fact that NASA has already awarded the time and materials
contract, this recommendation will be closed for reporting purposes.




                                            10
             Appendix A. Objectives, Scope, and Methodology

Objectives

The overall objective was to evaluate the effectiveness of NASA’s Safety Reporting
System (NSRS.) The specific objective related to this report was to determine whether
NASA and the NSRS contractor effectively performed contract requirements. This report
identifies conditions regarding the NSRS contract that warrant timely action by NASA
management because NASA may experience a break in service on the NSRS contract
when the current contract option period expires on May 19, 2002.

The remaining objectives, which will be discussed in a separate report, are to determine
whether NASA:

   •   effectively notified the appropriate NASA authorities of safety concerns and

   •   appropriately addressed, dispositioned, and resolved safety concerns.

Scope and Methodology

We reviewed applicable Federal laws and regulations as noted below and NASA
guidance related to the 8(a) program and the NSRS requirements as follows:

   •   Title 15, United States Code, Part 637(a), “The Small Business Act”

   •   Title 13, Code of Federal Regulations, Part 124, “8(a) Business
       Development/Small Disadvantaged Business Status Determinations”

   •   Federal Acquisition Regulation (FAR) 8, “Required Sources of Supplies and
       Services”

   •   FAR 16.1, “Selecting Contract Types”

   •   FAR 19.8, “Contracting with the Small Business Administration (The 8(a)
       Program)”

   •   NASA Procurement Information Circular 98-1, “Termination of 8(a) Contracts”

   •   NASA Procurement Information Circular 99-21, “Extension of the NASA and
       SBA [Small Business Administration] Memorandum of Understanding to Allow
       Direct Contracting with 8(a) Firms”

Additionally, we did the following:




                                            11
Appendix A

        •    Interviewed NASA procurement officials including the Contracting Officer,
             Contracting Officer’s Technical Representative, and the Contract Specialist as
             well as the NSRS contract program manager.

       •    Interviewed NASA Office of Safety and Mission Assurance officials including
            the Director, Safety and Risk Management Division and Chairman of the NSRS
            Management Technical Advisory Group.

       •    Reviewed the contract file, including the basic contract and funding
            modifications, statement of work, and correspondence relating to contract
            administration.

We did not assess the reliability of computer-processed data because we did not rely on it
to achieve our objective.

Management Controls Reviewed

We reviewed management controls related to the administration of 8(a) program13
contracts including the United States Code, the FAR, NASA Procurement Information
Circulars, and the Memorandum of Understanding and Partnership Agreement between
NASA and the Small Business Administration.

Audit Field Work

We performed field work from October 2001 through May 2002 at NASA Headquarters,
Goddard Space Flight Center, and the NSRS contractor office in Virginia. We performed
the audit in accordance with generally accepted government auditing standards.




13
     See footnote 1.

                                                12
                 Appendix B. Summary of Prior Audit Coverage

The NASA Office of Inspector General (OIG) has issued two reports relating to the
NASA Safety Reporting System (NSRS). In addition, the General Accounting Office
(GAO) has issued a report relating to the administration of 8(a) contracts.14

 “Modifications to the NASA Safety Reporting System,” Inspections and
Assessments Letter, February 10, 1998. The OIG reviewed selected aspects of the
NSRS during a review of issues related to the safety of the NASA/Mir missions.15 The
OIG suggested that the Office of Safety and Mission Assurance enhance the NSRS to
help ensure that all NASA and contractor employees are aware of the various safety
mechanisms available to quickly report safety concerns and to modify the NSRS Web
site to include hyperlinks to all Centers’ safety reporting processes, the OIG hotline, or
the safety office telephone numbers. The OIG proposed that the Web site, brochure, and
NSRS standard reporting form include statements to clarify that: (1) the NSRS reports
should not contain classified information; (2) reports containing allegations of potential
criminal activities be referred to the NASA OIG; and (3) the Web site, brochure, and the
NSRS form include the OIG hotline number. The OIG also requested that NASA
consider establishing and monitoring an Agencywide safety hotline, if only on a pilot
basis. Management did not agree to include a reference to the OIG hotline number on the
Web site or to state that the NSRS reports containing allegations of potential criminal
activities should be referred to the OIG in NSRS material. Management stated that the
recommendation to establish a hotline would be reviewed.

“NASA Safety Reporting System (NSRS),” Report Number A-LE-89-005,
February 14, 1992. Since its inception, the NSRS Office has processed 254 confidential
referrals to management. Many of the referrals dealt with concerns that otherwise may
not have reached the attention of Agency managers. Although the program has
augmented internal safety reporting for the Space Transportation System, the full benefits
to be gained through the program are not being realized. Problems with the program
include its limited scope and poor visibility and exposure. The OIG found that internal
controls, while generally adequate to protect correspondents’ identities, could be
improved. NASA agreed to implement corrective actions on nine of the report
recommendations, and the OIG withdrew one recommendation.

“SBA Could Better Focus Its 8(a) Program16 to Help Firms Obtain Contracts,”
Report Number GAO/RCED-00-196, July 2000. Access by firms to 8(a) contracts—
long considered the program’s biggest benefit—remains a problem. A long-standing
concern, cited in previous GAO and Small Business Administration Inspector General
reports, is that a few firms receive most of the 8(a) contracts, effectively limiting the
developmental opportunities available to other firms in the program. For example, in

14
    See footnote 1.
15
   In 1992, NASA and the Russian Space Agency signed a Joint Statement on Cooperation in Space
detailing a Space Shuttle mission to visit Mir, the Russian space station, and subsequently expanded the
cooperation to extend the NASA/Mir program for 10 Shuttle flights.
16
   See footnote 1.

                                                    13
Appendix B

fiscal year 1998, 209 firms received 50 percent of the 8(a) contract dollars. The Small
Business Administration acknowledged this problem and made some changes in the
program to address it, but stated that because of differences in firms’ skills, experience,
and other factors, not all 8(a) firms receive program contracts. In addition, Federal
procuring officials are confronted with the competing objectives of accomplishing their
agencies’ missions at a reasonable cost and achieving the 8(a) program’s business
development goals.




                                             14
        Appendix C. Our Analysis of the NSRS Contractor Reports

                  Category of Reported Data                  Number of Reports
                   Urgency/Criticality of Report:
                     -Immediate Urgency                               7
                     -Routine                                        53
                        Total                                        60
                   Concern Previously Reported:
                     -Previously Reported                            50
                     -Not Previously Reported                        10
                        Total                                        60
                   Topic Area of Report:
                     -Building/Facilities                            27
                     -Space Shuttle and
                       International Space Station                   14
                     -Industrial Safety                              11
                     -Aeronautics/Aviation                            4
                     -Vehicle/Passenger Safety                        3
                     -Miscellaneous                                   1
                        Total                                        60

Our analysis of the reports showed the following:

    •   Fifty-three (88 percent) of the 60 reports received were considered routine, while only
        7 (12 percent) reports were considered an immediate urgency, that is, needing immediate
        attention.

    •   Fifty (83 percent) of the 60 correspondents indicated they had reported the hazard
        elsewhere, for example, to their supervisor or their Center Safety Office. Based on
        NASA’s 14 years of NSRS operations, the Agency acknowledged that very few safety
        concerns that rise through the NSRS are completely unknown to those at the local level.
        Only 10 (17 percent) of the 60 reports indicated that the correspondent had not previously
        reported the hazard to anyone.

    •   Twenty-seven (45 percent) of the 60 reports showed that most of the reports related to
        buildings and facilities hazards.

    •   Fourteen (23 percent) of the 60 reports related to Space Shuttle and International Space
        Station hazards.

    •   Eleven (18 percent) of the 60 reports related to industrial safety hazards.

    •   Four (7 percent) of the 60 reports related to aeronautics/aviation hazards.

    •   Three (5 percent) of the 60 reports related to vehicle/passenger safety hazards.

    •   One (2 percent) of the 60 reports did not fall into any available category and was
        considered a miscellaneous report.



                                                 15
Appendix D. Management’s Response




               16
     Appendix D




                  See
                  Appendix
                  D,
                  OIG
                  Comment
                  1




                  See
                  Appendix
                  D,
                  OIG
                  Comment
                  2




17
            Appendix D




See
Appendix
D;
OIG
Comment 3




See
Appendix
D,
OIG
Comment 4




                         18
     Appendix D




19
        Appendix E. OIG Comments on Management’s Response

NASA Headquarters provided the following comments in its response to a draft of this
report. Our responses to the comments are also presented.

Management Comments. The NASA Office of Safety and Mission Assurance wants
the following statement (page 4, paragraph 3) expunged from the Office of Inspector
General (OIG) report:

       However, neither the CO [Contracting Officer] nor the COTR [Contracting Officer’s
       Technical Representative] requested a transition plan as required by the contract or made
       provisions for a replacement contract during the 9-month period from July 18, 2000, to
       April 2, 2001, when RPI sold to BTG, Inc.

As the report correctly notes, the COTR did know that Research Planning, Inc. (RPI) was
negotiating with Science Applications International Corporation (SAIC) and discussed
this with the CO and the ramifications with respect to the Small Business Administration
(SBA). Subsequently, the negotiations betweens RPI and SAIC ended; thus there was no
longer an issue. However, regarding the RPI negotiations with and sale to BTG, Inc.,
neither the CO nor the COTR knew that negotiations were in progress until after the sale.
Therefore, there was no reason to request a transition plan or consider a replacement
contract during that period.

1. OIG Comments. Based on the information we obtained regarding the negotiations
with SAIC, RPI planned to sell the company, even though the negotiations with SAIC
were unsuccessful. Although RPI did not inform NASA of the sale to BTG, Inc. in a
timely manner, NASA had knowledge that a sale was likely. However, NASA did not
adequately plan for a replacement contract. Further, when NASA was officially notified
of the sale in April 2001, Agency officials did not take steps to plan for a replacement
contract until April 2002. The lack of planning forced the Agency to award a sole-source
“bridge contract” (or purchase order) until competition could be completed on a new
NSRS contract. Issuing a sole-source purchase order based on an unusual and
compelling urgency was not justified when the Agency's lack of planning led to the
urgency. The U.S. Code (USC) states that the Competition in Contracting Act permits
noncompetitive acquisitions in specified circumstances, such as when the agency's need
for the services is of an unusual and compelling urgency and they are available from only
one responsible source according to 10 USC Section 2304(c)(2)(1994). For example, in a
similar case, the U. S. Comptroller General reiterated in his decision in TeQcom, Inc.,
86-2 CPD paragraph 700 (1986) that, “under no circumstances may noncompetitive
procedures be used due to a lack of advance planning by contracting officials” as cited in
10 USC, Section 2304(f)(5).

Management Comments. The CO initially contacted the SBA (by telephone) on
April 12, 2001, concerning the RPI buyout. This was 2 days after NASA received RPI's
letter of sale notification. As stated in the audit report, the CO contacted the SBA (in
writing) on May 1, 2001 (2 weeks after receiving notification from RPI of the sale


                                                  20
                                                                              Appendix E

to BTG, Inc.) to determine the status of the waiver submitted by RPI. Additionally, the
CO requested that the SBA Representative (at Goddard Space Flight Center) send a
follow-up message to the SBA on May 3, 2001, expressing the urgency of this matter.
After receiving no response from the SBA, the CO sent another message on May 11,
2001, stating that no response had been received, and the CO intended to initiate action to
exercise the next available 1-year option on May 14, 2001. Because this was a mission-
critical requirement dealing with NASA's number one initiative—safety, the CO had no
choice but to exercise the option to the contract. The SBA's faxed denial of the waiver
was not received until July 31, 2001. The CO had no reason to terminate the contract
during that 3-month period while awaiting SBA's response.

2. OIG Comments. We maintain that NASA should have terminated the contract upon
transfer of RPI ownership to a non-8(a) company in accordance with the Small Business
Act, the agreement with the SBA, and NASA’s internal policy. In addition, we believe
that the SBA’s denial of a waiver could have been reasonably expected because neither
RPI nor NASA complied with the requirements for requesting a waiver. Specifically, (1)
RPI did not request a waiver from the SBA prior to RPI’s sale to BTG, Inc., a non-8(a)
company; and (2) NASA did not request a waiver from the SBA stating, “termination of
the contract would severely impair attainment of the agency’s program objectives or
missions,” as allowed by the Small Business Act.

Even after the SBA denied the waiver and directed NASA to terminate the contract, the
CO still did not terminate the contract. This resulted in a non-8(a) company improperly
performing the contract requirements of an 8(a) set-aside contract for an additional
10 months.

Management Comments. The transition plan for terminating all functions by the
contractor and transferring the daily operations and physical material to a successor
company in charge of the NSRS operations was submitted/approved on April 23, 2002.

3. OIG Comments. We based our recommendation on information initially provided by
the COTR, who told us that although NASA received a transition plan on April 23, 2002,
it was not approved. The COTR suggested changes to the plan and gave it back to the
contractor for correction.

Management Comments. The report indicates that NASA is paying $9,500 a month to
have the contractor process one or two safety reports. The report fails to mention that the
requirements listed below are also included in the Statement of Work and were
performed by the contractor:

       •   Analyze, prepare, process, and transmit all reports regardless of the amount
       •   Update, operate, and maintain the NSRS database
       •   Conduct trend analysis



                                            21
Appendix E

       •   Conduct an awareness program that includes: design and distribution NSRS
           posters each year, provide promotional materials, support NSRS at all Centers
       •   Attend management/coordination and Technical Advisory Group meetings
       •   Support Space Shuttle launch/mission activities
       •   Maintain Technical Advisory Group operational procedures documents
       •   Design, print and distribute the annual Planning Guide

Additionally, a fixed-priced instrument has programmatic and business drawbacks. A
fixed-price award may create windfall profits for a contractor or put the contractor at risk
if the volume or complexity of the reports change, which, in turn, would reduce NASA's
service level on this mission-critical effort that safeguards lives and national assets. No
cost benefits or risk analysis was evident in the report to support the conclusion that the
cost-reimbursement contract was the incorrect contract type. In fact, the contract was
underrunning the originally negotiated costs, which could be an indicator of effective
program and cost management.

4. OIG Comments. We believe that NASA’s use of a time and materials contract is not
the best alternative to a cost-reimbursement contract. Rather, we maintain that NASA
could have negotiated a fixed-price contract to fulfill the NSRS requirement based on 15
years of cost and reporting history to price and negotiate the new contract. We encourage
NASA to review the performance and associated cost of the time and materials contract
before exercising future option periods to determine whether this contract alternative is,
in fact, in NASA’s best interest.

The findings and recommendations in this report are based on the audit work performed
to date. We plan to continue audit field work on NASA’s Safety Reporting System under
a new assignment number, A-02-006-01, and we will evaluate other requirements in the
Statement of Work to determine whether NASA and the NSRS contractor are performing
those tasks effectively.




                                             22
                      Appendix F. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

HQ/AI/Associate Deputy Administrator
HQ/AA/Chief of Staff
HQ/AB/Associate Deputy Administrator for Institutions
HQ/B/Deputy Chief Financial Officer
HQ/B/Comptroller
HQ/BF/Director, Financial Management Division
HQ/G/General Counsel
HQ/H/Assistant Administrator for Procurement
HQ/HK/Director, Contract Management Division
HQ/J/Assistant Administrator for Management Systems
HQ/JM/Director, Management Assessment Division
HQ/L/Assistant Administrator for Legislative Affairs
HQ/M/Associate Administrator for Space Flight
HQ/Q/Associate Administrator for Safety and Mission Assurance
HQ/QS/Director, Safety and Risk Management Division

NASA Advisory Officials

HQ/K/Chair, Minority Business Resource Advisory Committee
HQ/Q-1/Chair, NASA Aerospace Safety Advisory Panel
HQ/RX/Chair, Aerospace Technology Advisory Committee
HQ/UG/Chair, Biological and Physical Research Advisory Committee
HQ/Y/Chair, Earth System Science and Applications Technology Advisory Committee

NASA Centers

ARC/D/Director, Ames Research Center
DFRC/X/Director, Dryden Flight Research Center
GRC/0100/Director, John H. Glenn Research Center at Lewis Field
GSFC/100/Director, Goddard Space Flight Center
JPL/1000/Director, Jet Propulsion Laboratory
JSC/AA/Director, Lyndon B. Johnson Space Center
KSC/AA/Director, John F. Kennedy Space Center
KSC/CC/Chief Counsel, John F. Kennedy Space Center
LaRC/106/Acting Director, Langley Research Center
MSFC/DA01/Director, George C. Marshall Space Flight Center
SSC/AA00/Director, John C. Stennis Space Center




                                        23
Appendix F

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Managing Director, Acquisition and Sourcing Management Team, General Accounting
 Office
Senior Professional Staff Member, Senate Subcommittee on Science, Technology, and
 Space

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management and
 Intergovernmental Relations
House Subcommittee on Technology and Procurement Policy
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                         24
                    NASA Assistant Inspector General for Audits
                                 Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the
usefulness of our reports. We wish to make our reports responsive to our customers’
interests, consistent with our statutory responsibility. Could you help us by completing
our reader survey? For your convenience, the questionnaire can be completed
electronically through our homepage at http://www.hq.nasa.gov/office/oig/hq/audits.html
or can be mailed to the Assistant Inspector General for Audits; NASA Headquarters,
Code W, Washington, DC 20546-0001.

Report Title: Contracting Issues Associated with the NASA Safety Reporting
              System

Report Number:                                         Report Date:


                 Circle the appropriate rating for the following statements.

                                                      Strongly                                Strongly
                                                      Agree      Agree   Neutral   Disagree   Disagree   N/A

1.   The report was clear, readable, and logically       5         4       3          2          1       N/A
     organized.
2.   The report was concise and to the point.            5         4       3          2          1       N/A
3.   We effectively communicated the audit               5         4       3          2          1       N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to      5         4       3          2          1       N/A
     support the finding(s) in a balanced and
     objective manner.

Overall, how would you rate the report?
#     Excellent         #    Fair
#     Very Good         #    Poor
#     Good
If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.




How did you use the report?
How could we improve our report?




How would you identify yourself? (Select one)

   #   Congressional Staff                 # Media
   #   NASA Employee                       # Public Interest
   #   Private Citizen                     # Other:
   #   Government:            Federal:          State:         Local:


May we contact you about your comments?

Yes: ______                                 No: ______
Name: ____________________________
Telephone: ________________________


Thank you for your cooperation in completing this survey.
Major Contributors to the Report
Sandy Massey, Program Director, Safety and Technology Audits

Esther Judd, Program Manager

Kathleen M. Kirby, Auditor-in-Charge

Nancy Cipolla, Report Process Manager

Edith Hoggard, Program Assistant
